Case: 20-20110

Document: 00515764083

Page: 1

Date Filed: 03/03/2021

3Hntteb States! Court ot Appeals:
for tljc Jftftf) Circuit
United States Court of Appeals
Fifth Circuit

FILED

No. 20-20110

March 3, 2021
Lyle W. Cayce
Clerk

Robin Renee Melchior,

Petitioner—Appellant,
versus
Bobby Lumpkin, Director, Texas Department ofCriminal Justicey
Correctional Institutions Division,
Respondent—Appellee.
Appeal from the United States District Court
for the Southern District of Texas
USDC No. 4:19-CV-3480
ORDER:
Robin Renee Melchior, Texas prisoner # 1731030, pleaded guilty to
driving while intoxicated (DWI), third offense, with a deadly weapon finding
and was sentenced to 30 years of imprisonment. She moves for a certificate
of appealability (COA) to appeal the dismissal of her 28 U.S.C. § 2254
petition challenging this conviction as untimely. She asserts the district court
should have excused the untimeliness of her petition because she has new
evidence showing she is actually innocent. She alleges that she has a CarFax
report showing the car she was driving during the offense had no damage and

(

Case: 20-20110

Document: 00515764083

Page: 2

Date Filed: 03/03/2021

No. 20-20110

that this report shows the police report falsely stated her car hit two cement
barriers and other barriers.
To obtain a COA, a petitioner must make a “substantial showing of
the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2); Miller-El v.
Cockrell, 537 U.S. 322,336 (2003). If, as here, the district court denies relief
on procedural grounds, a COA should issue only when the prisoner “shows,
at least, that jurists of reason would find it debatable whether the petition
states a valid claim of the denial of a constitutional right and that jurists of
reason would find it debatable whether the district court was correct in its
procedural ruling.” Slack v. McDaniel, 529 U.S. 473, 484 (2000).
Melchior has not made the requisite showing. Actual innocence, if
proven, serves as a gateway through which a prisoner may assert § 2254
claims despite the expiration of the limitations period. McQuiggin v. Perkins,
569 U.S. 383, 386 (2013). However, Melchior has not made a debatable
showing that, in light of new, reliable evidence, no reasonable juror would
have found her guilty of the underlying offense beyond a reasonable doubt.
See id.\ Schlup v. Delo, 513 U.S. 298, 329 (1995). Because Melchior has not
shown that reasonable jurists could debate the dismissal of her § 2254
petition as untimely, see Slack, 529 U.S. at 484, her COA motion is
DENIED. Her motion for leave to proceed in forma pauperis on appeal is
also DENIED.
/s/ James E. Graves, Jr.
James E. Graves, Jr.
United States Circuit Judge

2

APPENDIX B

Case 4:19-cv-03480 Document 7 Filed on 01/30/20 in TXSD Page 1 of 7

?

United States District Court
Southern District of Texas

ENTERED
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
ROBIN RENEE MELCHIOR,
TDCJ #1731030,
Petitioner,
v.
LORIE DAVIS,
Respondent.

§
§
§
§
§
§
§
§
§
§'

January 31,2020
David J. Bradley, Clerk

CIVIL ACTION NO. H-19-3480

MEMORANDUM OPINION AND
ORDER OF DISMISSAL
State inmate Robin Renee Melchior (TDCJ #01731030) filed a petition for a
writ of habeas corpus by a person in state custody under 28 U.S.C. § 2254, alleging
that she received ineffective assistance of counsel from her trial counsel that
renders her plea agreement invalid.
I.

Background
Petitioner pleaded guilty in Montgomery County to one count of driving

while intoxicated in Criminal Case No. 11-040-3600CR. i On April 8, 2011, the
Court sentenced Petitioner to thirty years’ imprisonment due to a deadly weapon
finding. See Melchior v. State, Case No. 11-040-3600CR. Petitioner directly
appealed the judgment, but the Texas Ninth Court of Appeals dismissed the appeal
1 Petitioner is subject to a judgment in another criminal case, Case No. 10-0505425CR, in which she also pleaded
guilty of the same charge on the same date. However, Petitioner does not challenge this conviction and, even if she
did, the determination of the Court would not change.
1

Case 4:19-cv-03480 Document 7 Filed on 01/30/20 in TXSD Page 2 of 7

on August 24, 2011, after determining that Petitioner had no right to appeal the
judgment based on the terms of her plea agreement. See Melchior v. State, No 0011-0423-CR (Tex. App.-Beaumont [9th Dist.] Aug. 24, 2011. Petitioner did not
petition for discretionary review by the Texas Court of Criminal Appeals.
Petitioner filed one state application for a writ of habeas corpus pertaining to
her criminal judgment on July 5,2019.2 See WR-89,925-02. On August 21,2019,
the Texas Court of Criminal Appeals denied the application without a written order
or hearing based on the trial court’s findings. Id.
Petitioner filed the instant petition on September 13, 2019.3 See Dkt #1.
The petition alleges that her counsel provided ineffective assistance because he
failed to conduct an independent investigation into the report filed by Constable
Shackleford and failed to file a motion to suppress. See id. at 6. After the Court
ordered her to show cause as to why the construed petition should not be barred by
the statute of limitations, Petitioner responded by stating that she was actually
innocent of the underlying criminal charge and that the procedural default on
timeliness grounds should be excused. See Dkt. #5.

2 Petitioner did file a state application for a writ of habeas corpus in her other criminal conviction. See WR-89,92501. Petitioner filed this state application on May 16, 2019, and the application was denied by the Texas Court of
Criminal Appeals on July 3,2019, without a written order or hearing. Id.
3 Because Petitioner does not provide die date that she placed the petition into the prison mail-box system, she may
not take advantage of die prison mail-box rule and the petition is deemed filed on the date it was received by the
Court. Even if Petitioner were to take advantage of the prison mail-box rule, the petition would be filed on
September 5,2019, and would still be nearly seven years too late.
2

Case 4:19-cv-03480 Document 7 Filed on 01/30/20 in TXSD Page 3 of 7

n.

Discussion
This federal habeas corpus proceeding is governed by the Anti-terrorism and

Effective Death Penalty Act (the “AEDPA”), Pub. L. No. 104-132, 110 Stat. 1214
(1996). According to the AEDPA, all federal habeas corpus petitions filed after
April 24, 1996, are subject to a one-year limitations period found in 28 U.S.C.
§ 2244(d). A federal habeas corpus petition challenging a state court judgment
must be filed within one year from the date that the challenged conviction becomes
“final by the conclusion of direct review or the expiration of the time for seeking
such review.”4 28 U.S.C. § 2244(d)(1)(A). Petitioner’s conviction became final on
September 23, 2011, when her time expired to petition for discretionary review
from the Texas Court of Criminal Appeals. See Roberts v. Cockrell, 319 F.3d 690,
693-95 (5th Cir. 2003) (holding that a Texas conviction becomes final for
limitations purposes when the time for seeking further direct review expires). That
date triggered the statute of limitations for federal habeas corpus review, which
expired one year later on September 24, 2012.5 See 28 U.S.C. § 2244(d)(1)(A).
As a result, the pending habeas corpus petition, executed by Petitioner on
September 13, 2019, is nearly seven-years too late, and is barred from federal
review unless a statutory or equitable exception applies to toll the limitations
period.
4 Petitioner does not otherwise allege that the statute of limitations should run from another possible date, for
example, relating to when the foots of his claims became known to her.
3

Case 4:19-cv-03480 Document 7 Filed on 01/30/20 in TXSD Page 4 of 7

A habeas petitioner may be entitled to statutory tolling under 28 U.S.C.
§ 2244(d)(2), which excludes from die AEDPA limitations period a “properly filed
application for [s]tate post-conviction or other collateral review.”

A state

application for collateral review is “properly filed” for purposes of § 2244(d)(2)
“when its delivery and acceptance are in compliance with the applicable laws and
rules governing filings.” Artuz v. Bennett, 531 U.S. 4, 8 (2000) (emphasis in
original).

In other words, “a properly filed [state] application [for collateral

review] is one submitted according to the state’s procedural requirements.”
Causey v. Cain, 450 F.3d 601, 605 (5th Cir. 2006) (quoting Lookingbill v.
Cockrell, 293 F.3d 256, 260 (5th Cir. 2002)). As stated above, the record shows
that Petitioner filed one state habeas application pertaining to the judgment on July
5, 2019.

Because the state application was filed past the date the statue of

limitations ran, the application does not toll the statute of limitations. Therefore,
the federal petition is still filed nearly seven-years too late.
The Fifth Circuit has held that the statute of limitations found in the AEDPA
may be equitably tolled, at the district court’s discretion, “in rare and exceptional
circumstances.” Davis v. Johnson, 158 F.3d 806, 811 (5th Cir. 1998). Equitable
tolling is an extraordinary remedy which is sparingly applied. See Irwin v. Dep’t
of Veterans Affairs, 498 U.S. 89, 96 (1990). The Supreme Court has clarified that
a “‘petitioner’ is ‘entitled to equitable tolling’ only if he shows ‘(1) that he has
4

Case 4:19-cv-03480 Document 7 Filed on 01/30/20 in TXSD Page 5 of 7

been pursuing his rights diligently, and (2) that some extraordinary circumstance
stood in his way’ and prevented timely filing.’” Holland v. Florida, 560 U.S. 631,
649 (2010) (quoting Pace v. DiGuglielmo, 544 U.S. 408, 418 (2005)).
Petitioner does not demonstrate that she has pursued federal relief with
diligence or that equitable tolling is otherwise available. See Holland, 560 U.S. at
649; Dkt. #1. Petitioner makes no showing that any circumstance stood in her way
of filing the petition on time. Equitable tolling is not available where the petitioner
squanders her federal limitations period. See, e.g., Ott v. Johnson, 192 F.3d 510,
514 (5th Cir. 1999). Petitioner does say that she is actually innocent of the
underlying criminal charges. See Dkt. #5. While a claim of actual innocence may
excuse procedural deficiencies, such as filing a habeas petition past the statute of
limitations, Petitioner does not present a viable claim of actual innocence.
Petitioner must show that newly discovered evidence exists and that the evidence
would make it more likely than not that no reasonable juror would have found her
guilty beyond a reasonable doubt Schlup v. Delo, 513 U.S. 298, 327 (1995).
Petitioner does not present any newly discovered evidence or show how the
evidence discussed would elicit doubt that her guilty plea is valid. Petitioner
claims that her attorney failed to present a CarFax report that refuted a statement
made by Constable Shackelford describing damage to the car Petitioner drove at
the time of the offense. Dkt. #5 at 3-4. Petitioner also alleges that her counsel
5

Case 4:19-cv-03480 Document 7 Filed on 01/30/20 in TXSD Page 6 of 7

failed to investigate into Constable Shackelford’s police report and have him
testify against Petitioner. Id. Petitioner does not show that this information is
newly discovered or was unavailable at the time she pleaded guilty. In fact,
Petitioner states that this information was merely “not presented to the state trial
court during [the] trial proceedings.” Id. at 3. Moreover, Petitioner does not
address how this evidence would invalidate her guilty plea. In sum, Petitioner has
not shown a viable actual innocence claim. Petitioner offers no valid explanation
for the delay and the record does not reflect equitable tolling is appropriate. In
conclusion, the § 2254 petition is denied as time-barred.
m.

Certificate of Appealability

Rule 11 of the Rules Governing Section 2254 Cases requires a district court
to issue or deny a certificate of appealability when entering a final order that is
adverse to the petitioner. A certificate of appealability will not issue unless the
petitioner makes “a substantial showing of the denial of a constitutional right,” 28
U.S.C. § 2253(c)(2), which requires a petitioner to demonstrate “that reasonable
jurists would find the district court’s assessment of the constitutional claims
debatable or wrong.” Tennard v. Dretke, 542 U.S. 274, 282 (2004) (quoting Slack
v. McDaniel, 529 U.S. 473, 484 (2000)). Where denial of relief is based on
procedural grounds, the petitioner must show not only that “jurists of reason would
find it debatable whether the petition states a valid claim of the denial of a
6

Case 4:19-cv-03480 Document 7 Filed on 01/30/20 in TXSD Page 7 of 7

constitutional right,” but also that they “would find it debatable whether the district
court was correct in its [] ruling.” Slack, 529 U.S. at 484. Because jurists of reason
would not debate whether the ruling in this case was correct, a certificate of
appealability will not issue.
Conclusion

IV.

As a result, Petitioner’s § 2254 petition (Dkt. #1) is DENIED as timebarred. The case is dismissed with prejudice. A certificate of appealability shall
not issue.
., 2020.

SIGNED at Houston, Texas, on

DAVID HITTNER
UNITED STATES DISTRICT JUDGE

7

Case 4:19-cv-03480 Document 8 Filed on 01/30/20 in TXSD Page 1 of 1
United States District Court
Southern District of Texas

ENTERED

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
ROBIN RENEE MELCHIOR,
TDCJ #1731030,
Petitioner,
v.

LORIE DAVIS,
Respondent.

§
§
§
§
§
§
§
§
§
§

January 31, 2020
David J. Bradley, Clerk

CIVIL ACTION NO. H-19-3480

FINAL JUDGMENT
Robin Renee Melchior’s petition for a writ of habeas .corpus by a person in
state custody under 28 U.S.C. § 2254 is denied. The case is dismissed with
prejudice.
SIGNED at Houston, Texas, on

, 2020.

DAVID HITTNER
UNITED STATES DISTRICT JUDGE

Case 4:l|3-cv-Q3480 Document 13 Filed on 03/05/20 in TXSD Page 1 of 1
United States District Court
Southern District of Texas

l

I

ENTERED

I

IN THE LJNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION

ROBIN RENEE MELCHIOR,
i
TDCJ #1731030,

§
•§
§
§
§
§
§
§
§
§

Petitioner,
v.

LORIE DAVIS,
Respondent.

March 06, 2020
David J. Bradley, Clerk

CIVIL ACTION NO. H-19-3480

ORDER
RobinjRenee Melchior moves to proceed in forma pauperis on appeal. The
Court dismissed the § 2254 petition as time-barred. The appeal is not in good
faith.
Accordingly, the motion (Dkt. #10) is DENIED.
SIGNED at Houston, Texas, on

Qka*-

., 2020.

!

DAVID HITTNER
UNITED STATES DISTRICT JUDGE

;

APPENDIX C

Case 4:19-cv-03480 Document 4 Filed on 10/15/19 in TXSD Page 1 of 1
United States District Court
Southern District of Texas

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
ROBIN RENEE MELCHIOR,
TDCJ #1731030,
Petitioner,
v.

LORIE DAVIS,
Respondent.

§
§
§
§
§
§
§
§
§
§

ENTERED
October 16, 2019
David J. Bradley, Clerk

CIVIL ACTION NO. H-19-3480

ORDER TO SHOW CAUSE
Petitioner Robin Renee Melchior filed a petition for a writ of habeas corpus
by a person in state custody under 28 U.S.C. § 2254. In her petition, Petitioner
admits that her petition is filed past the applicable one-year statute of limitations,
but that the limitation should be excused because she is actually innocent. Public
records confirm that the petition appears to be barred from review because it was
filed past the statute of limitations.
Accordingly, it is ORDERED that Petitioner show cause, within thirty days
from the date of this Order, as to why the petition should not be dismissed as timebarred.
SIGNED at Houston, Texas, on

., 2019.

DAVID HITTNER
UNITED STATES DISTRICT JUDGE

A

APPENDIX D
l

Case 4:19-cv-03480 Document 5 Filed on 11/14/19 in TXSD Page 1 of 7

___

United States Courts

EV THE UNITED STATES DISTRICT COURT

Southern District of Texas
FILED

FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION

NOV 14 2019
David J. Bradley, Clerk of Court

ROBIN RENEE MELCHIOR,
Petitioner

§
§
§

Vs.

§

LORIE DAVIS,
Director

§
§
§

CIVIL NO. H-19-3480

PETITIONER’S RESPONSE TO COURT’S
OCTOBER IS. 2019 ORDER TO SHOW CAUSE
TO THE HONORABLE JUDGE OF SAID COURT:
Petitioner Robin Renee Melchior files this her response to the court’s October 15,2019 show
cause order. The court has ordered Petitioner to show cause as to why her federal petition should
not be dismissed as time-barred.
I.
PETITIONER IS PREJUDICED IN REPSQNDING AT THIS TIME
Petitioner will make a good-faith effort to respond to the court’s show cause order, but asserts
she is prejudiced in responding at this time. The nature of Petitioner’s underlying habeas claims
for relief and her reasons for asserting to her federal habeas petition should not be time-barred,
should be considered as pleaded by Petitioner, and in consideration ofthe state records in fids case,
the original records of the trial proceedings, and post conviction proceedings. Those records are
not before the court. The court has entered no show cause order to the Respondent to produce
such records. Of importance, for example, is an affidavit filed during the state court habeas
proceedings from Petitioner’s former defense counsel, Steven Jackson,. Although Petitioner has
1

Case 4:19-cv-03480 Document 5 Filed on 11/14/19 in TXSD Page 2 of 7

some partial information from the state trial and habeas proceedings she does not have the
complete records and has been unable to obtain them due to her indigency. When a federal court
issues a show cause order to the Respondent, and the Respondent produces records, those records
may be viewed on line by any person. The court can then review those records when making
rulings on issues impacting the resolution of Petitioner’s case.
In Petitioner’s challenge to state fact findings, request for in-court evidentiary hearing, and
exception allowing late filing under McQuiggin v. Perkins, on file in this case, Petitioner is
requesting, among other things, an evidentiary hearing on newly presented evidence. A hearing
on the time-bar issue is appropriate, as well.

n.
PETITIONER’S INITIAL RESPONSE TO TIME-BAR ISSUE
Petitioner relies on the exception to the normal time limitations imposed in federal habeas cases
on this Supreme Court’s decision in McQuiggin v. Perkins. 569 U.S. (2013).
In McQuiggen the Supreme Court held that a showing of actual innocence may serve as a
gateway through which a petitioner may pass when filing an untimely 2254 petition under 28
U.S.C. §2244(d)(l). Under McQuiggin, federal courts do not count unjustifiable delays in filing
a federal habeas petition as a barrier to habeas relief. The Supreme Court rejected a state’s
argument that a habeas petitioner who asserts actual innocence must prove diligence to cross the
federal court’s threshold. Indeed, in McQuiggin the petitioner in that case waiting some eleven
years before filing affidavits demonstrating actual innocence. A showing of diligence is not
required as a prerequisite to consideration of Petitioner’s actual innocence exception and her claim
of being denied the effective assistance of counsel, resulting in an unknowing, unintelligent, or
involuntary plea of guilty. Petitioner has maintained her innocence to the offense for which she

2

Case 4:19-cv-03480 Document 5 Filed on 11/14/19 in TXSD Page 4 of 7

Petitioner’s vehicle hit two cement barriers, and struck other barriers. However, soon after the
incident Petitioner turned the car back into die dealership. There was absolutely no damage to the
car and Petitioner was given a full refund. The CarFax report shows that there was no damage to
the car. Mr. Shackelford had no dash cam video in operation, and filed no “crash report.” There
was no evidence from the county’s law enforcement call center that Mr. Shackelford had even
stopped a semi truck on die highway, as he had alleged. Mr. Shackelford’s cursory statement, that
the car Petitioner was driving almost hit him, came within inches of him when passing by, served
as the basis for indicting and convicting Petitioner of using a ‘deadly weapon’.
Due to lack of investigation Petitioner’s defense counsel, Steven Jackson, conducted no
investigation into the matter of lack of damage to die car Petitioner was driving or falsehoods
contained in Mr. Shackelford’s report, as mentioned above. See also Page 6 of Petitioner’s federal
petition, and pages 6-A and 6-B of that ground attached to this response. Although not before the
court, an affidavit filed by Steven Jackson during the state habeas proceeding contains inconsistent
and internally controverting statements with regard to Constable Shackelford. At one point in the
affidavit Mr. Jackson states that he may have spoken to Mr. Shackelford prior to the original plea
proceedings, but did not recall what was said, having made no notes; and in another point in the
affidavit waivered on what he actually did or did not do in the matter. The state habeas court
denied Petitioner’s request for an evidentiary hearing, resulting in Mr. Shackelford never being
examined, cross-examined in any proceeding involving Petitioner, and no records being produced
by the county to show that Mr. Shackelford had even stopped a semi truck on die highway. The
Petitioner was not allowed by the state courts to develop evidence of Mr. Shackfelford’s falsehoods
contained in his offense report

4

Case 4:19-cv-03480 Documents Filed on 11/14/19 in TXSD Page 5 of 7

Under McQuiggin, die court should allow die late filing of Petitioner’s federal habeas petition
to proceed, as Petitioner brings forth newly presented evidence which make a prima facie case of
her actual innocence to having allegedly used a ‘deadly weapon’ in the context ofthe DWI offense.
Petitioner reiterates her request for an evidentiary hearing on die matter ofher newly presented
evidence, and as concern her actual innocence; and to challenge state fact findings as pleaded in
Petitioner’s memorandum on file in this case. There can be no question but that the failure to
develop foots during the state habeas proceeding was no fault of Petitioner. See Smith v. Cain,
708 FJd 628,635 (5* Cir. 2013),
, Petitioner requests die court to issue a show cause order to the Respondent, responding to
Petitioner’s federal habeas petition, and so that state records are before the court in order to make
a feir and just resolution ofthe issues in Petitioner’s case. .
Respectfully submitted,

$9 torn ufAjdcrvuQH
ROBIN RENEE MELCHIOR, #1731030
Carol Young Facility
5509 Attwater Ave.
Dickinson, Texas 77539

m

3

/

Case 4:19-cv-03480 Documents Filed on 11/14/19 in TXSD Page 6 of 7

STATEMENT ON CERTIFICATE OF SERVICE
I, Petitioner, state that no service of the foregoing and within has been made, as no Respondent or
other parly has made an appearance in this case.

ROBIN RENEE MELCHIOR, #1731030

6

